               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




           Vehicle Parts Inventory
         Management – Northeast Area

                       Audit Report




                                         September 24, 2012

Report Number DR-AR-12-007
                                                                    September 24, 2012

                                             Vehicle Parts Inventory Management –
                                                                    Northeast Area

                                                        Report Number DR-AR-12-007



BACKGROUND:
The U.S. Postal Service has 308 vehicle      sufficient and within established levels,
maintenance facilities (VMFs)                18 percent were below minimum levels,
nationwide to maintain its vehicle fleet.    and only 1 percent exceeded the
The Northeast Area has 36 VMFs.              maximum level. Parts were not at
Officials acquire vehicle parts via the      required levels because they were either
parts consignment program from two           due in, on back order, or not used as
primary national ordering agreement          planned and returned to inventory. Not
(NOA) suppliers. These suppliers             maintaining minimum established
provide parts to maintain and repair         inventory levels could potentially
vehicles, which range from motors,           increase delays in vehicle repairs.
transmissions, tires, and batteries to       Further, management did not always
nuts, bolts, and screws. Repair parts        safeguard parts inventory. This occurred
can also be purchased locally. In            because managers were not aware of
fiscal year 2011, Northeast Area officials   security risks and policies regarding
purchased $23,472,793 in vehicle parts.      safeguarding of assets. As a result of
                                             inadequate controls, vehicle parts
To maintain vehicle parts, stockrooms        valued at $8,331,963 were at risk.
have been established at every VMF.
Postal Service policies require VMF          WHAT THE OIG RECOMMENDED:
personnel to perform regular inventories     We recommended the vice president,
of its vehicle parts to ensure the           Northeast Area Operations, require
inventories are sufficient and accurate.     district officials to ensure they maintain
Additionally, personnel must safeguard       established minimum inventory levels.
all assets.                                  Further, we recommended district
                                             officials re-emphasize the safeguarding
Our objectives were to determine             of vehicle parts and the proper
whether vehicle parts were being             management of inventories. We also
purchased and maintained appropriately       recommended they implement training
and whether controls were adequate to        for stockroom personnel.
safeguard vehicle parts inventory.
                                             Link to review the entire report
WHAT THE OIG FOUND:
Overall managers at selected Northeast
Area VMFs generally purchased and
maintained inventory levels for NOA and
non-NOA parts. We found that part
inventory balances for 81 percent were
September 24, 2012

MEMORANDUM FOR:            RICHARD P. ULUSKI
                           VICE PRESIDENT, NORTHEAST AREA OPERATIONS




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Audit Report – Vehicle Parts Inventory
                           Management – Northeast Area
                           (Report Number DR-AR-12-007)

This report presents the results of our audit of the Vehicle Parts Inventory Management
— Northeast Area (Project Number 12XG001DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director,
Delivery, or me at 703-248-2100.

Attachments

cc: Dean J. Granholm
    Megan Brennan
    Deborah Giannoni-Jackson
    Elizabeth A. Schaefer
    Phillip F. Knoll
    Kristin A. Seaver
    Ignatius Vaccaro
    Corporate Audit and Response Management
Vehicle Part Inventory Management –                                                                                DR-AR-12-007
 Northeast Area



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Vehicle Parts Purchases ................................................................................................. 1

Vehicle Parts Inventory Levels ........................................................................................ 3

Vehicle Parts Physical Inventory Controls ....................................................................... 5

   Physical Security and Access Control ......................................................................... 5

   Inventory and Purchasing Procedures ......................................................................... 5

   Vehicle Post Office Transfers ...................................................................................... 6

Recommendations .......................................................................................................... 7

Management’s Comments .............................................................................................. 7

Evaluation of Management’s Comments ......................................................................... 8

Appendix A: Additional Information ................................................................................. 9

   Background ................................................................................................................. 9

   Objectives, Scope, and Methodology .......................................................................... 9

   Prior Audit Coverage ................................................................................................. 11

Appendix B: Other Impacts ........................................................................................... 12

Appendix C: Management’s Comments ........................................................................ 13
Vehicle Parts Inventory Management –                                                             DR-AR-12-007
 Northeast Area



Introduction

This report presents the results of our audit of vehicle parts inventory management in
the Northeast Area (Project Number 12XG001DR000). The objectives of this
self-initiated audit were to determine whether national ordering agreement (NOA) and
non-NOA parts were being purchased and maintained appropriately and
whether management controls were adequate to safeguard vehicle parts inventory. This
audit addresses operational risk. See Appendix A for additional information about this
audit.

The U.S. Postal Service has 308 vehicle maintenance facilities (VMFs) nationwide to
maintain a fleet of 215,000 vehicles. Thirty-six of these are in the Northeast Area, which
maintains more than 27,000 vehicles. VMF officials acquire parts via the parts
consignment program1 from two primary NOA suppliers: Wheeler Brothers,
Incorporated (WBI) and Jasper Innovative Solutions, Incorporated (JISI). Repair parts
can also be purchased locally. To maintain vehicle parts there must be stockrooms at
every VMF. Postal Service policies require personnel to perform regular inventories of
its vehicle parts to ensure purchases are entered correctly, record quantities on-hand
correctly, investigate and correct discrepancies, and safeguard all assets.2

Conclusion

Overall, managers at selected Northeast Area VMFs generally purchased and
maintained inventory levels for NOA and non-NOA parts. We found that parts inventory
balances for 81 percent were sufficient and within the established maximum3 and
minimum4 levels, 18 percent were below the minimum, and only 1 percent exceeded the
maximum. Furthermore, managers did not always safeguard parts inventory. This
occurred because of variations in inventory and because managers were not aware of
the security risks and policies regarding safeguarding assets. As a result of inadequate
controls, vehicle parts valued at $8,331,963 were at risk.

Vehicle Parts Purchases

Managers at selected VMFs generally purchased NOA parts from NOA suppliers and
non-NOA parts from local vendors as needed. NOA suppliers were the primary source
for purchasing repair parts. In fiscal year (FY) 2011, Northeast Area officials purchased
$23,472,793 in vehicle parts, $20,028,741 of which represented NOA purchases. NOA
purchases represented 85 percent of the total cost for all parts purchased and non-NOA
parts accounted for 15 percent (see Table 1).



1
  Mandatory use of the Consignment of Vehicle Repair Parts Inventory Program for VMFs began in 1997.
2
  Vehicle Maintenance Bulletin 02-11, Review of Stockroom Policy and Procedures, April 15, 2011.
3
  The quantity that should not be exceeded.
4
  The quantity that must be maintained to avoid adversely impacting maintenance and repair services.
                                                          1
Vehicle Parts Inventory Management —                                                                     DR-AR-12-007
 Northeast Area



                                     Table 1. FY 2011 Vehicle Parts Purchases

                                                                                                     Non-NOA
                                                                5
            District                 VMF/Auxiliary (AUX)                NOA Purchases                Purchases
    Greater Boston                  Boston/Chelsea                              890,635                   175,932
                                    Brockton                                  1,340,083                    21,595
                                    Framingham                                  196,932                    11,439
                                    Lynn                                        145,905                    78,507
                                    Worcester                                 1,227,026                   131,169
    Total                                                                    $3,800,581                  $418,642

    Connecticut Valley              Fall River                                      774,760                  46,946
                                    Hartford                                      2,231,154                 218,960
                                    Springfield/Pittsfield                        1,171,401                 104,689
                                    Waterbury                                     1,197,492                  58,476
    Total                                                                        $5,374,807                $429,071

    Long Island                     Hicksville                                    2,424,079              1,116,204
    Total                                                                        $2,424,079             $1,116,204

                                    New York/Franklin D.
    New York                        Roosevelt (FDR)                                  917,169                410,502
    Total                                                                           $917,169               $410,502

    Northern New England            Manchester                                    2,056,803                  99,814
                                    Portland                                      1,248,512                  85,545
    Total                                                                        $3,305,315                $185,359

    Northern New Jersey             Edison                                        1,853,523                  85,233
                                    Kearny                                           69,727                 410,947
                                    Newark                                        2,283,540                 388,094
    Total                                                                        $4,206,790                $884,274
    Total Vehicle Parts
    Purchases                                      $23,472,793                  $20,028,741             $3,444,052
Source: Vehicle Management Accounting System (VMAS).

According to officials, they purchased non-NOA parts to prevent repair delays when
NOA parts were out of stock or on back order. Officials also stated that NOA suppliers
did not always provide parts for heavy-duty and administrative vehicles.6 As shown
above, officials at the Kearny VMF purchased more heavy-duty vehicle non-NOA parts
than NOA parts. Although the Kearny VMF maintains a small stockroom of JISI parts,
they primarily rely on non-NOA parts. Consequently, repair delays could occur by not
having a minimum inventory level for these parts.


5
 A satellite facility used to handle additional capacity. Chelsea, Pittsfield, and FDR are auxiliary facilities.
6
 Heavy-duty vehicles include tractors, truck trailers, spotters, and 7-ton cargo vans. Administrative vehicles are
non-mail hauling vehicles used in support of Postal Service operations such as field supervisory visits.


                                                           2
Vehicle Parts Inventory Management —                                                               DR-AR-12-007
 Northeast Area


Vehicle Parts Inventory Levels

Vehicle parts inventory levels were generally sufficient and appropriate to perform
maintenance and vehicle repairs. NOA suppliers establish minimum and maximum
levels for NOA parts. These levels are used to monitor and maintain inventories. The
minimum level is the quantity that must be maintained to avoid adversely impacting
maintenance and repair services. The maximum level is the quantity that should not be
exceeded. Maximum levels were not established for all parts and are not required. The
Postal Service does not incur any costs for maintaining excess NOA parts, as the parts
remain the property of the NOA supplier until used for vehicle repair.

The U.S. Postal Service Office of Inspector General’s (OIG) analysis of inventory
reports for the 19 selected Northeast Area VMFs showed that:

     VMFs maintained 19,849 parts.7

     Eighty-one percent (16,041 of 19,849) of parts were maintained within the
      established minimum or maximum levels.

     Eighteen percent (3,509 of 19,849) of parts were below the established minimum
      level.

     One percent (299 of 19,849) of parts exceeded the established maximum level.

    See Table 2 for our analysis.




7
 The inventory report listed 36,880 total parts available for purchase. However, the VMFs only maintained 19,849
parts. The remaining 17,031 parts were not stocked or did not have enough usage data to establish a minimum and
maximum level.


                                                        3
     Vehicle Parts Inventory Management —                                                                         DR-AR-12-007
      Northeast Area



                                         Table 2. NOA Parts Inventory Levels8




                                                                          Total Parts         Number of
                                                     Total Spare          Maintained          Spare Parts
                                                      Parts With            Within               With              Number of
                                                     Established          Established          On-Hand            Spare Parts
                                                      Minimum              Minimum             Quantity          With On-Hand
                                                        and/or              and/or              Below               Quantity
                                                      Maximum              Maximum             Minimum              Exceeds
           VMF/Aux                 Consignor           Levels               Levels              Level            Maximum Level
 Boston                                WBI                    1,785                 1,530                 251                     4
 Brockton                              WBI                    1,221                 1,011                 202                     8
 Chelsea                               WBI                       876                  697                 178                     1
 Edison                                JISI                      981                  581                 367                    33
 Fall River                            WBI                       780                  592                 184                     4
 FDR                                   WBI                       443                  392                  50                     1
 Framingham                            WBI                       768                  639                 129                     0
 Hicksville                            WBI                    1,946                 1,731                 201                    14
 Hartford                              WBI                       917                  773                 141                     3
 Kearny                                JISI                      260                  226                  34                     0
 Lynn                                  WBI                    1,506                 1,246                 260                     0
 Manchester                            WBI                    1,527                 1,125                 397                     5
 Newark                                JISI                   1,644                 1,156                 356                132
 New York Main VMF                     WBI                       802                  694                 106                     2
 Pittsfield                            WBI                       455                  405                  50                     0
 Portland                              WBI                       968                  715                 253                     0
 Springfield                           WBI                       964                  736                 172                    56
 Waterbury                             WBI                    1,073                   984                  73                    16
 Worcester                             WBI                       933                  808                 105                    20
 Total                                                       19,849               16,041                3,509                299
Source: OIG analysis.

     According to VMF officials, NOA supplier inventory levels were established based on
     12 months of average parts use. Further, officials stated that some parts were not at the
     required minimum level because they were either due in and not included in the
     on-hand quantity, or they were on back order. Some on-hand quantities exceeded the
     maximum level because mechanics did not use the parts and returned them to
     inventory. Also management indicated vehicle repairs could be delayed as a result of
     not maintaining established inventory levels.

     8
         Inventory data for on-hand qualities are as of the date of the OIG visit. On-hand quantities fluctuate daily.


                                                                    4
Vehicle Parts Inventory Management —                                                                  DR-AR-12-007
 Northeast Area



Vehicle Parts Physical Inventory Controls

VMF managers established controls to manage and safeguard vehicle parts inventory.
However, physical safeguards and inventory management controls over vehicle parts at
some VMFs were not always adequate.

Physical Security and Access Control

Managers did not secure vehicle part storage locations at some VMFs.

   At four VMFs (Boston, Chelsea, FDR, and Manchester) some doors were not closed
    or locked. In addition, at the New York Main VMF, officials were unaware of the
    number of stockroom keys issued. Management took corrective action during our
    review by changing stockroom door locks and re-issuing keys to stockroom
    personnel.9

   Stockroom access was not limited to assigned stockroom personnel at the following
    five locations:

              o   Chelsea.
              o   Edison.
              o   FDR.
              o   Kearny.
              o   Manchester.

According to policy, stockroom access should be physically limited to personnel
designated to issue parts and tools.10 In some instances, we observed mechanics
accessing the stockroom and retrieving parts during the absence of stockroom
personnel. Additionally, we noted personnel walking through the stockroom to access
other areas of the VMF. Further, managers did not prepare written standard operating
procedures (SOP) for managing stockrooms in the absence of assigned personnel as
required.11

Inventory and Purchasing Procedures

Our analysis of inventory records confirmed stockroom personnel had conducted
mandatory inventories on a monthly basis. However, management did not always
ensure that inventories were conducted in accordance with established policies and


9
 Vehicle Maintenance Bulletin 02-11, Review of Stockroom Policy and Procedures, require doors not continuously
visible by stockroom personnel to be closed and locked. Additionally, keys must be issued to personnel with
stockroom assigned duties.
10
   Vehicle Maintenance Bulletin 02-11, Review of Stockroom Policy and Procedures, April 15, 2011.
11
   Vehicle Maintenance Bulletin 02-11, Review of Stockroom Policy and Procedures states that when a facility does
not have full-time staff available, the manager must prepare SOP describing specific procedures and responsibilities
for maintaining the same level of security a full-time staff would provide.


                                                          5
Vehicle Parts Inventory Management —                                                                 DR-AR-12-007
 Northeast Area


procedures.12 We found that, at the majority of the facilities, two people conducted the
inventories. However, we noted the following exceptions:

    In most instances assigned stockroom personnel counted the inventory.
    In one instance a single supervisor independently conducted the inventory.
    In two instances personnel conducted telephone inventories.

Additionally, we found that purchasing personnel also accepted vehicle parts at all the
VMFs reviewed. These exceptions and the lack of separation of duties13 increase the
likelihood of theft of vehicle parts. We informed the appropriate district officials of our
findings and they issued an SOP outlining the proper procedures for conducting
mandatory interim inventories. Additionally, managers in the Edison, Kearny, Newark,
and New Jersey VMFs established a process to separate duties for purchasing and
receiving vehicle parts.

Vehicle Post Office Transfers

Vehicle parts transferred to vehicle post offices (VPOs)14 were not always monitored
and tracked to ensure they were received at the facility. At eight of the 19 VMFs, we
found officials had signed copies of Postal Service (PS) Form 4543, Vehicle
Maintenance Work Order, from the VPOs that transferred the parts. However, at six15 of
the 19 VMFs, officials did not obtain the forms or reconcile them with VPO parts request
logs, as required.16 For example, officials at the Brockton VMF could not provide a
status of the signed documents and indicated reconciliations had not occurred in
9 months. Consequently, not monitoring and tracking parts shipped to VPOs decreases
VMF officials’ oversight of parts shipped and potentially increases the risk of vehicle
parts being stolen.

Several factors contributed to inadequate inventory controls:

    Managers were not aware of physical security or access controls weaknesses.

    Stockroom personnel were unaware of stockroom inventory procedures. Some
     officials stated they had not received training on managing the stockroom.




12
   Vehicle Maintenance Bulletin 02-11, Review of Stockroom Policy and Procedures, requires mandatory or interim
inventories be performed each month, with specific part numbers identified to be counted. The inventory team must
consist of two people, including a person not assigned to the stockroom.
13
   Vehicle Maintenance Bulleting 02-11, Review of Stockroom Policy and Procedures states that each installation
head must designate authorized personnel who are responsible for signing and receiving documents and accepting
shipments on behalf of the Postal Service. Managers are required to prepare SOP to identify an alternate process for
receipt of goods and services by the requester or purchaser.
14
   Vehicle Post Offices are offices with Postal Service-owned or leased vehicles assigned.
15
   The remaining five VMFs did not transfer parts to VPOs.
16
   Handbook PO-701, Fleet Management, requires VMF officials to send a copy of PS Form 4543 with parts shipped
to VPOs so the VPO representative receiving the parts can sign and return it.


                                                         6
Vehicle Parts Inventory Management —                                                             DR-AR-12-007
 Northeast Area



    Some officials indicated that staffing constraints prevented them from providing the
     required separation of duties. Others stated that current purchase card procedures
     prevented them from separating duties.17

    Officials did not implement procedures for managing stock shipped to VPOs
     because, historically, prior procedures were not enforced or staffing constraints
     prevented them from reviewing documents to reconcile parts transfers.

As a result of inadequate inventory controls, assets valued at $8,331,963 were
potentially at risk.

Recommendations

We recommend the vice president, Northeast Area Operations:

1. Require district officials to ensure they maintain established minimum inventory
   levels to prevent repair delays.

2. Re-emphasize stockroom management policies and procedures on physical security
   and inventory management including spare part transfers at Vehicle Maintenance
   Facilities.

3. Implement training for stockroom personnel on security and inventory matters.

Management’s Comments

Management agreed with the findings and recommendations and acknowledged the
security issues but disagreed with the dollar value of the assets at risk.

For recommendation 1, management stated they would ensure local VMF management
review inventories on a weekly and monthly basis to ensure vehicle repair parts are kept
at sufficient levels. Management also stated this action would lead to having all vehicles
repaired in a timely manner and keep delivery preventive vehicle service and in-shop
days at a minimum. Management implemented action on September 20, 2012.

Management also agreed with recommendation 2, stating they would require each VMF
to develop a site-specific SOP to address the physical security issues in their
stockrooms. Management also stated they will message the SOP, along with Vehicle
Fleet Management Bulletin 02-11 ,18 to all VMF employees, post them permanently, and
ensure that VMF management enforce them. Further, management stated that each


17
   Handbook AS-709, Purchase Card Policies and Procedures for Local Buying, states the purchase card can only be
used by the purchaser. No other person can be authorized to use the card or card account number to make a
purchase. The OIG plans to include policy issues including separation of duties in our capping report and make
recommendations to Supply Management Headquarters officials, as appropriate.
18
   Vehicle Maintenance Bulletin 02-11, Review of Stockroom Policies and Procedures.


                                                       7
Vehicle Parts Inventory Management —                                                                DR-AR-12-007
 Northeast Area


VMF would have a process in place to account for part shipments from the VMF to their
VPOs. Management implemented action on September 20, 2012.

Lastly, management agreed with recommendation 3. Management stated they would
ensure VMF management provides all applicable employees with a copy of Vehicle
Fleet Management Bulletin 02-11. Management also stated they would require VMF
management to make all applicable employees aware of the current Solution Enterprise
Asset Management (SEAM)19 Cycle Count Process. Management implemented action
on September 20, 2012.

Management acknowledged there were security issues at eight of the nineteen facilities
reviewed. However, they disagreed with the $8,331,963 in assets at risk. Management
stated they did not believe the entire inventory would be at risk due to staff not following
all of the established stockroom security procedures. Management stated that
shortages can and will occur by not limiting stockroom access to authorized personnel.
Management stated they would monitor results of the monthly cycle counts at each
VMF and take the appropriate actions for facilities with unacceptable changes due to
shortages and overages of parts and supplies. See Appendix C for management’s
comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

We estimated assets at risk of $8,331,963 based on the dollar value of the FY 2011
parts purchases. At these eight VMFs, we found inadequate inventory safeguards and
access controls for these stockrooms. Therefore, we considered these assets at risk.
During our exit conference discussions, management agreed with our methodology and
the $8,331,963 representation of the potential risk.

Regarding recommendations 1, 2, and 3 the OIG reviewed management’s
documentation and concurs that the actions taken sufficiently addressed the
recommendations. The OIG considers the recommendations closed with the issuance
of this report.




19
  SEAM is a web-based application designed to improve inventory tracking and visibility, implement forecasting and
automatic replenishment capabilities; and standardize asset tracking maintenance/repair functions. SEAM recently
replaced the Vehicle Management Accounting System.


                                                         8
Vehicle Parts Inventory Management —                                          DR-AR-12-007
 Northeast Area



                            Appendix A: Additional Information

Background

The Postal Service operates one of the largest vehicle fleets in the U.S. During
FY 2011, the Postal Service owned more than 213,000 vehicles, using more than
190,000 for the delivery and collection of mail. The Postal Service has 308 VMFs
nationwide to maintain its vehicle fleet. Economical maintenance of the vehicle fleet
requires that parts and materials needed for maintenance actions be readily available.
To maintain parts, stockrooms must be established at every VMF. In FY 2011, the
Postal Service spent about $273 million to purchase and transfer vehicle parts and
supplies.

To maintain vehicles, repair parts can be purchased locally or through local or national
purchasing agreements, including parts received on consignment. The vehicle
maintenance repair parts consignment program is a value-added feature of NOAs and
contracts. The Postal Service has consignment agreements with several suppliers.
These suppliers provide parts to maintain and repair vehicles, which range from motors,
transmissions, tires, and batteries to nuts, bolts, and screws. Through the consignment
process, selected vehicle repair parts are ordered, received, and stocked at the
facilities. The parts remain the property of the NOA supplier until facility personnel use
the part to repair a vehicle, at which time the Postal Service is charged for the part. In
contrast, invoices for non-NOA parts are processed upon receipt by accounts payable,
resulting in inventory costs to the Postal Service. Outside vendors may be used as a
backup for purchasing parts when they are out of stock or on back order to prevent
repair delays, but should not be generally used in place of NOA suppliers.

The VMAS is an integrated management control and reporting system designed to
manage the Postal Service’s vehicle fleet. VMAS serves as a resource for perpetual
inventory and proper accounting records to assist fleet managers with managing their
inventories. To maintain stock levels, Postal Service policies and procedures require
VMF personnel to perform regular inventories of its vehicle parts to ensure purchases
are entered correctly, quantities on-hand are recorded correctly, and discrepancies are
investigated and corrected. Because VMAS cannot support total tracking of NOA
supplier parts, authorized NOA suppliers have created integrated Postal Service-
supplier information networks. Parts are received into and issued out of VMAS after
they are installed on a vehicle. After performing parts inventory, both VMAS and the
suppliers’ systems must be reconciled.

Objectives, Scope, and Methodology

Our objectives were to determine whether NOA and non-NOA vehicle parts were being
purchased and maintained appropriately and whether management controls were
adequate to safeguard inventory.




                                            9
Vehicle Parts Inventory Management —                                                               DR-AR-12-007
 Northeast Area




Our audit scope included assessing vehicle parts inventory data and processes and
procedures used to maintain inventory stock levels and safeguard vehicle parts at
selected VMFs. Specifically, we:

    Obtained data from the Enterprise Data Warehouse (EDW) to determine national,
     area, and district costs for vehicle parts and supplies.

    Reviewed EDW and VMAS cost data and judgmentally selected the Northeast Area
     for our review, based on the highest value of vehicle parts issued of the four
     Postal Service areas considered.20

    Randomly selected VMFs in the Northeast Area for review and conducted physical
     site visits of selected units.

    Obtained and reviewed FY 2011 vehicle parts purchase information.

    Obtained NOA supplier inventory data and compared the established levels to
     vehicle parts quantities on-hand. We did not test the maximum and minimum
     inventory levels established by the contractors.

    Observed physical security and access controls at selected VMFs.

    Conducted interviews with applicable personnel and obtained documentary evidence
     regarding parts purchases, inventory levels, and controls.

    Reviewed applicable documentation, policies, and procedures.21

We conducted this performance audit from October 2011 through September 2012, in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on August 14, 2012, and included their
comments where appropriate.

We assessed the reliability of vehicle parts data from EDW, VMAS, and supplier
information networks by reviewing various data elements and interviewing personnel
knowledgeable about the data and the parts purchased. To verify NOA suppliers’ parts

20
   These areas include Capital Metro, Eastern, Great Lakes, and Northeast. We assessed the Pacific, Southwest, and
Western Areas in the report Vehicle Parts Program (Report Number DR-AR-10-008, dated September 24, 2010).
21
   Documentation, policies, and procedures reviewed include Handbook PO-701; VMB 02-97, Vehicle Maintenance
Standard Operating Procedures; VMB 04-03, Mandatory (Interim) Physical Inventories; and VMB 02-11, Review of
Stockroom Policy and Procedures.


                                                       10
Vehicle Parts Inventory Management —                                           DR-AR-12-007
 Northeast Area


data, we compared NOA suppliers parts inventory reports to parts stored at the selected
facilities. We determined that the data were sufficiently reliable for the purposes of this
audit.

Prior Audit Coverage

The OIG report titled Vehicle Parts Program (Report Number DR-AR-10-008, dated
September 24, 2010) found that, although the vehicle parts purchasing process
significantly reduced Postal Service costs for vehicle parts, the Postal Service did not
always pay the lowest price for vehicle parts. Also, vehicle part assets were at risk at
some VMFs. Management agreed with the findings and recommendations, including a
monetary impact of $17,488,469.




                                            11
Vehicle Parts Inventory Management —                                                              DR-AR-12-007
 Northeast Area


                                     Appendix B: Other Impacts

     Recommendation                                Impact Category                                Amount

              2                                     Assets at Risk22                                $8,331,963

The OIG reviewed inventory controls at 19 VMFs in the Northeast Area. At eight
locations, we identified physical security weaknesses and inadequate controls over
transferring parts to VPOs. We calculated the value of parts inventory during FY 2011
for each of the VMFs that had one or both of the risk factors identified. We estimated
assets at risk of $8,331,963 based on inadequate inventory controls at the facilities (see
Table 3).

                            Table 3. Vehicle Parts Inventory Controls

                                                             Assets at Risk            FY 2011 Assets at
          District                   VMF/Aux                   Category                      Risk

 Greater Boston                   Boston/Chelsea              Physical Security                   $1,066,567
                                        Brockton               Parts Transfers                     1,361,678
 New York                          New York/FDR               Physical Security                    1,327,671
 Northern New
 England                               Manchester             Physical Security                     2,156,617

 Northern New Jersey                         Edison           Physical Security                    1,938,756
                                             Kearny           Physical Security                      480,674
 Total Assets at Risk                                                                             $8,331,963
Source: OIG analysis.




22
  Assets or Accountable Items at Risk include assets or accountable items (for example, cash, stamps, and money
orders, vehicle parts) that are at risk of loss because of inadequate internal controls.




                                                       12
Vehicle Parts Inventory Management —                          DR-AR-12-007
 Northeast Area


                          Appendix C: Management’s Comments




                                         13
Vehicle Parts Inventory Management —        DR-AR-12-007
 Northeast Area




                                       14
